                            SOCIAL SECURITY
                            Office of the Inspector General

                                    October 15, 2010


The Honorable Earl Pomeroy
Chairman, Subcommittee on
 Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Pomeroy:

In a May 20, 2010 letter, you requested that we conduct an audit of the Social Security
Administration’s (SSA) Financial Literacy Initiative. Specifically, you requested that we
determine (1) why SSA considered its Financial Literacy Research Consortium (FLRC)
necessary; (2) whether SSA coordinated with other agencies or the Office of
Management and Budget to ensure research and development efforts were not
duplicative; and (3) what SSA’s expert panel found when reviewing the FLRC grant
proposals. The enclosed report presents the results of our review.

My office is committed to combating fraud, waste, and abuse in SSA’s operations and
programs. Thank you for bringing your concerns to my attention. The report highlights
various facts pertaining to the issues raised in your letter. To ensure SSA is aware of
the information provided to your office, we are forwarding a copy of this report to the
Agency.

If you have any questions concerning this matter, please call me or have your staff
contact Misha Kelly, Congressional and Intra-governmental Liaison at (202) 358-6319.

                                                Sincerely,




                                                Patrick P. O’Carroll, Jr.
                                                Inspector General

Enclosure

cc:
Michael J. Astrue


             SOCIAL SECURITY ADMINISTRATION       BALTIMORE, MD 21235-0001
  CONGRESSIONAL RESPONSE
         REPORT

  The Social Security Administration’s
Financial Literacy Research Consortium

             A-08-10-20181




              October 2010
                                         Mis s ion
B y c onduc ting independent and objec tive audits , evaluations and inves tigations ,
we ins pire public c onfidenc e in the integrity and s ec urity of S S A’s programs and
operations and protec t them agains t fraud, was te and abus e. W e provide timely,
us eful and reliable information and advic e to Adminis tration offic ials , C ongres s
and the public .

                                        Authority
T he Ins pec tor G eneral Ac t c reated independent audit and inves tigative units ,
c alled the Offic e of Ins pec tor G eneral (OIG ). T he mis s ion of the OIG , as s pelled
out in the Ac t, is to:

   C onduc t and s upervis e independent and objec tive audits and
    inves tigations relating to agenc y programs and operations .
   P romote ec onomy, effec tivenes s , and effic ienc y within the agenc y.
   P revent and detec t fraud, was te, and abus e in agenc y programs and
    operations .
   R eview and make rec ommendations regarding exis ting and propos ed
    legis lation and regulations relating to agenc y programs and operations .
   K eep the agenc y head and the C ongres s fully and c urrently informed of
    problems in agenc y programs and operations .

  T o ens ure objec tivity, the IG Ac t empowers the IG with:

   Independenc e to determine what reviews to perform.
   Ac c es s to all information nec es s ary for the reviews .
   Authority to publis h findings and rec ommendations bas ed on the reviews .

                                          V is ion
W e s trive for c ontinual improvement in S S A’s programs , operations and
management by proac tively s eeking new ways to prevent and deter fraud, was te
and abus e. W e c ommit to integrity and exc ellenc e by s upporting an environment
that provides a valuable public s ervic e while enc ouraging employee development
and retention and fos tering divers ity and innovation.
                                                                          Background
OBJECTIVE
Our objectives were to determine (1) why the Social Security Administration (SSA)
considered its Financial Literacy Research Consortium (FLRC) necessary; (2) whether
SSA coordinated with other agencies or the Office of Management and Budget (OMB)
to ensure research and development efforts were not duplicative; and (3) what SSA’s
expert panel found when reviewing the FLRC grant proposals.

BACKGROUND
SSA’s Strategic Plan Fiscal Years 2008 – 2013 included a Special Initiative to
Encourage Saving. 1 According to SSA, this financial literacy initiative is designed to
expand previous Agency efforts to effectively inform the American people about SSA
programs and the importance of retirement planning. There are three major elements to
SSA’s financial literacy initiative: (1) production of the annual Social Security
Statement; (2) promotion and support for the Retirement Estimator; and (3) the
Agency’s research program. To accomplish the Agency’s research program, SSA
awarded grants to three entities under the FLRC. The following sections summarize
SSA’s design and development process for the research program.

Request for Applications

In April 2009, SSA published a Request for Applications (RFA) 2 soliciting research
proposals for a 5-year cooperative agreement for which SSA would award grants. 3
Specifically, the RFA sought applications for “research centers”4 that would develop
products designed to address five key questions. These questions were established by
SSA and, as outlined below, asked how the Agency could encourage:

1. retirement savings for new labor-force entrants;
2. protection of retirement resources for mid-career individuals;
3. work and retirement decisions for near retirees that ensure adequate retirement
   income;



1
    See full plan at http://www.socialsecurity.gov/asp/index.htm.
2
    Financial Literacy Research Consortium RFA, 74 Fed. Reg. 18424 – 18433 (April 22, 2009).
3
 The FLRC’s 5-year cooperative agreement is contingent on an annual review process and continued
availability of funds.
4
 For its research centers, SSA sought applications from domestic institutions of higher education,
non-profit organizations, commercial organizations, Federal and State Governments, and
Native American tribal organizations.

SSA’s Financial Literacy Research Consortium (A-08-10-20181)                                         1
4. effective resource management for current retirees to prevent hardship later in life;
   and
5. effective retirement savings initiatives for low- and moderate-income populations.

Additionally, the RFA stated that “The key goal of the FLRC is not only to develop
compelling products, but also to get these products into the hands of the public.” 5

SSA’s RFA stated that, in the first year, the FLRC would be composed of two research
centers, which would have a combined annual funding of approximately $5 million. 6 To
select the FLRC grant recipients, the RFA stated that submitted applications would be
reviewed in three stages: (1) elimination of nonresponsive applications, (2) expert panel
review, and (3) administrative review. 7 As specified in the RFA, the expert panel would
consist of at least three qualified persons, who would objectively review and score the
proposals. 8 The panel would then make recommendations based on the application
scores, feasibility and adequacy of the project plan and methodology, and how the
centers would jointly meet the objectives of the FLRC. 9 The RFA stated, “Although the
results from the review panel are the primary factor used in making funding decisions,
they are not the sole basis for making awards.” 10

The FLRC Grant Application Review Process

In the first stage of the review process, SSA deemed all 10 applications received to be
responsive to the RFA criteria.

The second stage called for an expert panel to conduct a technical review and score
applications. SSA selected a 12-member expert panel to provide seasoned and
respected input. The panel was highly diverse with respect to expertise, organizational
representation and outlook, and personal demographics. The panel included Federal
executives, experts from the private sector, and academia. SSA vetted panel members
to ensure that no conflicts of interest existed that would preclude them from reviewing
submitted applications.




5
    Financial Literacy Research Consortium RFA, 74 Fed. Reg. Supra, note 2 at 18427.
6
 Id at 18425. The RFA stated that although the Agency anticipated making two awards, nothing in the
Federal Register announcement restricted the Agency’s ability to make more or fewer awards, reduce the
amount of the awards, or add additional research centers in the future. Id at 18429.
7
    Id at 18432, 18431, 18430, and 18426, respectively.
8
    Id at 18431.
9
    Id.
10
     Id at 18432.

SSA’s Financial Literacy Research Consortium (A-08-10-20181)                                         2
The expert panel review was a multi-phased process designed to provide opportunities
for reviewers to discuss and evaluate the applications. First, SSA assigned each
panelist to a team of four reviewers responsible for providing initial reviews of three or
four applications. Second, SSA organized a conference call for each team to discuss
the assessments of applications they reviewed. Finally, SSA organized a full-panel
meeting to review and score all applications. Although SSA instructed panel members
to focus only on the review criteria in the RFA, it allowed reviewers an opportunity to
provide written comments that did not relate to the scoring criteria. While these
comments did not influence application scores, SSA could consider them for planning
and development of the overall financial literacy research effort. During this meeting,
the panel members gave each proposal a combined group score. None of the scores
exceeded 68 out of 100 possible points. Additionally, the panel members provided SSA
personnel with their individual score sheets, some of which contained written comments
about the proposals.

After the official review and scoring was complete, some panel members discussed the
non-scoring feedback they provided to SSA. Because many had concerns about the
proposals, 8 of the 12 expert panelists signed and submitted a letter to SSA contracting
personnel. The letter stated that panel members did not believe SSA should fund any
of the submitted proposals because they did not address the needs discussed in the
RFA. The letter also stated that SSA should cancel the RFA and develop a new one if it
wished to focus on improving financial management and decision-making among
lower- and middle-income Americans. Furthermore, the letter stated there are many
products and approaches in the United States, and the proposals did not build on these
existing materials or use them effectively. Although SSA considered these comments
outside the scope of the expert panel review, the Agency stated that it attempted to
address these concerns during its administrative review.

The final stage of the FLRC review process called for an administrative review, which
required that SSA collect and review scores from the expert panel review and develop a
funding plan for the FLRC, while considering coverage of key RFA objectives across the
top scoring applications. The expert panel eliminated the four lowest-scoring
applications. From the remaining applications, SSA chose the two highest-scoring
applications and examined their proposals to determine coverage of RFA objectives
across the two applications. After SSA determined that the two centers selected did not
include a significant number of research projects for special populations, SSA selected
a third center, 11 which contained the strongest research-based focus on special
populations. 12 In the first year of the FLRC initiative, SSA provided a total of $7.5
million to these three research centers. At the time of our review, funding for the
second year of the FLRC had not yet been approved and awarded.




11
     The third research center was one of the remaining applications the expert panel deemed meritorious.
12
     The three research centers are Boston College, RAND Corporation, and University of Wisconsin.

SSA’s Financial Literacy Research Consortium (A-08-10-20181)                                                3
S C OP E AND ME T HODOL OG Y
To accomplish our objectives, we interviewed SSA personnel responsible for developing
and overseeing the FLRC and grant processes. We also contacted panel members to
obtain their perspective of SSA’s application review process, the RFA, and the merits of
applications submitted. See Appendix B for additional information regarding our scope
and methodology.




SSA’s Financial Literacy Research Consortium (A-08-10-20181)                          4
                                                    Results of Review
As described in SSA’s RFA, Social Security benefits are a key foundation in providing
income security to millions of Americans. However, these benefits are intended to
complement other sources of income, whenever possible. Given the recent economic
crisis in the United States, SSA is concerned that many Americans are in danger of
having insufficient savings for retirement and other life events. SSA stated that it
believed it has a “. . . special responsibility to help Americans of all working ages to
understand the role of Social Security benefits and the need for Americans to save as
they plan for retirement and other life events.” As such, it developed the FLRC as a
complement to other financial literacy initiatives.

When developing the RFA, requesting resources for the initiative, and ultimately funding
the proposed activities of the research centers, SSA coordinated with OMB, other
Federal agencies, academia, and leading experts in the field of financial literacy.
Although avoiding duplication with other research and development activities may not
have been SSA’s primary goal, the Agency was proactive in briefing numerous
stakeholders regarding its plans. Additionally, SSA representatives stated that future
funding requests for FLRC research centers will be reviewed by a knowledgeable panel
to identify any possible duplication of other ongoing research projects.

In our interviews with 11 of the 12 expert panel members, 13 almost all echoed the
concerns outlined in the letter they sent to SSA contracting personnel after reviewing
and scoring the FLRC grant applications. In fact, although only 8 of the 12 panel
members signed the letter, 10 of the 11 we interviewed generally agreed with the
concerns expressed. The panel members also outlined various other concerns they
had with the proposals. Half the panel members did not believe any of the proposals
were sufficient and unique enough to warrant millions of dollars in taxpayer funding. A
few panel members stated that if SSA had been able to work with some of the
applicants to tailor the proposals, their concerns may have been alleviated.

Because SSA officials did not believe Federal grant-making rules allowed them to
discuss the concerns expressed in the letter with the expert panel members, SSA did
not directly respond to the panel’s letter. Additionally, SSA believed the panel’s
recommendations were outside the scope of its responsibility to provide a technical
review of the grant applications. However, SSA responded in an email to panelists that
their comments and scores would be considered during its decision process and it could
customize awards to produce the most effective consortium. While SSA did not provide
the panel with details of its final funding decision, the Agency provided us evidence that
it considered the panel’s comments and made several adjustments to the grant awards
to address their specific concerns.

Although not a traditional step in the Federal grant award process, we learned that it is
not contrary to Federal policy for SSA to discuss the expert panel’s comments with the

13
     One panelist was unavailable for interview.

SSA’s Financial Literacy Research Consortium (A-08-10-20181)                                5
members, after the completion of their technical review. 14 As such, we believe SSA
could have acknowledged receipt of the panel’s letter. In our opinion, had SSA
engaged in such conversations with the panel members after the conclusion of its
technical review and explained its broad plans to request improvements to the grant
proposals, some of the panel’s concerns may have been eased. As such, if another
expert panel reviewing grant proposals has concerns such as those expressed by the
FLRC panel, we encourage SSA to improve its communication with panel members.
Additionally, based on our review results and supplementary concerns expressed by
staff members of the House Appropriations Committee and House Committee on Ways
and Means, Subcommittee on Social Security, we plan to review SSA’s overall grant
award and management process in Fiscal Year 2011.

Why Did SSA Believe the FLRC Initiative Was Necessary?
As the Agency responsible for delivering and managing the Nation’s Social Security
programs, 15 SSA recognized it had the opportunity to influence short- and long-term
retirement savings. From the Agency’s perspective, SSA is uniquely positioned to
educate Americans on saving for retirement because most Americans will come into
contact with SSA at some point in their lives. During his 2007 confirmation hearing,
SSA’s Commissioner acknowledged the importance of Americans saving for retirement
and understanding the role of Social Security. In addition, the Commissioner expressed
that a special initiative was needed because so many Americans were in danger of
having insufficient savings for retirement and other life events. As such, SSA’s
Strategic Plan Fiscal Years 2008 – 2013 contained a Special Initiative to Encourage
Saving that focused on helping Americans better prepare for retirement. 16

In response to this initiative, SSA developed the FLRC to create innovative,
research-based products to encourage savings and improve understanding of the
Social Security program among the American public. The aims and design of the FLRC
provided opportunities for SSA to partner with other Federal agencies, such as
members of the Financial Literacy and Education Commission (FLEC), 17 to leverage
research and development investments in financial literacy and savings. Through
SSA’s involvement in FLEC, it realized that less than half of member agencies
conducted financial literacy research and development, and many did not evaluate the
effectiveness of their efforts. SSA also consulted with experts in the field of retirement
policy who indicated that many products and programs designed to change savings
14
  An SSA Office of Acquisition and Grants official researched this issue and found the policy silent with
regard to communicating with expert panel members after their technical review.
15
  SSA provides Old-Age, Survivors and Disability Insurance and Supplemental Security Income benefit
payments to eligible individuals under Titles II and XVI of the Social Security Act. Social Security Act
§§ 201 et seq. and 1601 et seq.; 42 U.S.C. §§ 401 et seq. and 1381 et seq.
16
     Supra, note 1.
17
   In 2003, the Financial Literacy and Education Improvement Act established the FLEC, which is chaired
by the Secretary of the Department of the Treasury and comprises 21 Federal agencies, including SSA.
The Commission was tasked with improving the American public’s financial literacy and education
through development of a national strategy.

SSA’s Financial Literacy Research Consortium (A-08-10-20181)                                                6
behavior are developed and implemented without evidence-based evaluation. These
experts agreed that a key objective should be to use research to develop programs and
products to improve retirement planning.

Did SSA Coordinate with the Office of Management and Budget
and Other Federal Agencies to Prevent Duplicative Efforts?
Based on interviews with SSA representatives and review of documentation, we
determined that SSA coordinated with OMB and numerous other Federal agencies and
private entities to gather input for the FLRC and share the Agency’s plans. Although
avoiding duplication with other research and development activities may not have been
SSA’s primary goal when doing so, the Agency was proactive in briefing numerous
stakeholders regarding its plans—and SSA believed that such efforts assisted it in
preventing duplication.

For example, SSA began developing ideas for its FLRC in the summer of 2008 when it
held a Seminar on Financial Literacy and Education with key internal and external
stakeholders 18 to brainstorm ideas on how SSA could be responsive to the Agency’s
soon to be released Special Initiative to Encourage Saving. In October 2008, SSA met
with OMB to discuss its Fiscal Year 2010 budget request, which included a discussion
of the proposed FLRC. OMB questioned SSA regarding how it would ensure the
FLRC’s efforts and materials would not duplicate other entities’ financial literacy efforts.
SSA responded that it had participated with other Federal agencies, including FLEC, 19
and the Departments of the Treasury, Agriculture, and Labor. In addition, SSA
coordinated with numerous external groups to discuss financial literacy initiatives. OMB
accepted SSA’s response and forwarded the Agency’s FLRC funding request to the
Congress.

In October 2008, SSA’s Financial Literacy Team 20 also met to discuss SSA’s research
initiative and begin developing the RFA. Over the following months, the Financial
Literacy Team met with external stakeholders, including America Saves, the Employee
Benefit Research Institute, FLEC, the President’s Advisory Council on Financial
Literacy, and the Department of Agriculture. In addition, SSA’s Team attended various
conferences to learn more about financial literacy from third-party experts. These
conferences included the Departments of the Treasury and Health and Human Services
Relationship Finance Summit—Theory and Practice Conference; National Academy of
Social Insurance Conference on Social Insurance, Fiscal Responsibility, and Economic
Growth; and the Brookings Institution’s Conference on Financial Literacy in Times of
Turmoil and Retirement Insecurity.
18
  In addition to representatives from seven SSA offices, external stakeholders present included OMB,
Wharton School, Dartmouth College, National Institute on Aging, National Bureau of Economic Research,
Employee Benefit Research Institute, Boston College, Investment Company Institute, Swedish Social
Insurance Agency, Anna Rappaport Consulting, and Michigan Retirement Research Center.
19
     SSA representatives chair three of FLEC’s working groups.
20
  SSA’s Financial Literacy Team included staff from its Offices of Retirement Policy; Research,
Evaluation and Statistics; and Program Development and Research.

SSA’s Financial Literacy Research Consortium (A-08-10-20181)                                        7
In December 2008, SSA created a Sounding Board that informally convened
third-party expert review and feedback on proposed FLRC goals, objectives, and
direction. The Sounding Board included personnel from such organizations as the
Employee Benefit Research Institute, Financial Regulatory Authority, National
Endowment for Financial Education, and AARP. The Sounding Board meeting results
were presented to SSA’s Financial Literacy Advisory Group (FLAG) 21 during a
January 2009 meeting. The Sounding Board recommended, and FLAG concurred, that
SSA explicitly frame the overarching, strategic questions that would differentiate the
FLRC from other initiatives. Although we did not audit the RFA development, SSA
believed it responded to the Sounding Board and FLAG’s recommendation.

SSA continues to coordinate with OMB and other agencies. SSA briefed OMB in
August (before grant award) and October 2009 (after grant award). Further, SSA stated
that future funding requests for FLRC research centers will be reviewed by several
prominent Federal and private entities that fund other financial literacy research.
Although this process was not in place for the initial award, these organizations will
review abstracts of future FLRC funding proposals to identify any possible
overlap/duplication. The results of this review will be a factor in SSA’s recommendation
for renewal of FLRC grantees.

In response to congressional questions about duplication of other initiatives, the
Commissioner of Social Security responded, “Now that I am aware of these concerns, I
have directed staff to closely monitor the progress of the FLRC . . . I will thoroughly
review this situation and determine if further action is necessary.” Additionally, he
stated,

         The FLRC has several mechanisms to ensure that work is innovative, relevant to
         our initiative, and not duplicative of other efforts.       These ongoing review
         mechanisms include quarterly progress reports, which are reviewed by program and
         grant management staff, a review of activities by our expert panel of outside
         scholars twice a year, a public annual conference, and interaction with other Federal
         agencies regarding research program development. We will carefully evaluate the
         FLRC’s progress before funding additional work. We will review the FLRC and RRC
         [Retirement Research Consortium] programs to identify and, if appropriate,
         eliminate any overlap. 22

Although we have not audited the performance of FLRC grantees or the efforts SSA
cited to prevent duplicative efforts, the Commissioner of Social Security and his staff
appear ready to closely monitor the grantees for such occurrences.




21
  SSA created FLAG in November 2007. FLAG is an internal advisory group consisting of members from
every SSA component except the Office of Disability Adjudication and Review. FLAG members are
stakeholders on financial literacy issues.
22
     The RRC produces academic research on Social Security retirement and disability policy.

SSA’s Financial Literacy Research Consortium (A-08-10-20181)                                     8
What did SSA’s Expert Panel Find When Reviewing the FLRC
Proposals?
In addition to the concerns expressed in their letter, some panelists told us they had
other concerns with the FLRC review process. For example, most of the panelists told
us there was a lack of communication with SSA during and/or after the FLRC review.
One panelist told us that SSA representatives who were present during the full panel
meeting did not want to address panelists’ concerns. In fact, one panelist told us if SSA
decisionmakers had addressed their concerns during the panel meeting, they probably
would not have written the letter. Additionally, panel members expressed the following
opinions during our interviews.
•   One panel member stated that, to an extent, the panel’s criticism of the proposals
    reflected criticism of the financial literacy initiative as a whole. He said that SSA was
    “reinventing the wheel” in that the proposals were similar to efforts already
    undertaken by other Federal agencies and nonprofit organizations. He realized that
    there were limitations and inefficiencies with past and current financial education
    programs and believed “SSA missed a terrific opportunity to advance the whole field
    of financial education significantly.”
•   One panel member stated that the proposals did not adequately address the RFA.
    She added that even the best proposal would not accomplish what SSA had put
    forth in the RFA. She believed the applicants tried to write their proposals in a
    manner that would meet SSA’s RFA but really were requesting funding for research
    projects already underway. She did not believe that any of the grant proposals
    would achieve the stated goals of the RFA.
•   One panel member believed the panel was uncertain what the RFA was trying to
    accomplish. She believed the centers receiving the panel’s top scores were already
    receiving substantial funding from other sources, and she did not think any of the
    proposals would accomplish more than what was already being done in the area.
•   At least four of the panel members told us they believed partial funding of some of
    the proposals would be beneficial. Specifically, they thought it would be useful if
    SSA had the flexibility to fund pieces of several proposals.

Additionally, most panelists told us they did not know whether SSA addressed their
concerns because SSA had not provided any feedback regarding its final funding
decision. Although the panelists acknowledged the need to protect the confidentiality of
submitted proposals, none told us they believed SSA prohibited them from expressing
their concerns about the FLRC review process.

Although many panelists had strong opinions as to how SSA should fund the FLRC,
others realized their opinions/comments were beyond the scope of their review. For
example, a few panelists told us the panel scored the proposals as instructed, and SSA
used the scores as expected. Other panelists expressed their respect for SSA and told
us they believed SSA has a unique opportunity in the financial literacy area because it
has contact with many, if not all, Americans.

SSA’s Financial Literacy Research Consortium (A-08-10-20181)                                9
What did SSA do to Address the Panel’s Concerns?
While performing its administrative review, SSA stated that it attempted to address the
expert panel’s comments and concerns. For example, an SSA representative told us
the Agency developed a matrix that listed each proposed project, the RFA elements
covered, and panelist comments. Following are additional examples SSA provided to
illustrate how panelists’ comments assisted the Agency in modifying the two top-scoring
projects.
•   One of the panel’s top-scoring applications proposed four projects that would
    produce print and interactive Web products in the first year. While these projects
    covered retirement planning topics across the age spectrum, panelists noted that the
    application was heavy on print publications and lacked sequencing in the production
    strategy, and researchers were stretched too thin in the first year. As such, SSA cut
    half these projects from the grant.
•   The other top-scoring application featured projects on financial advice from third
    parties and made financial advice immune to market distortions. The review panel
    thought there was too much of a private industry bias, so SSA did not fund any of
    the projects that demonstrated a bias.

According to SSA, it also considered the expert panel’s recommendation to cancel the
current RFA and create a new one but chose not to do so. SSA stated it had vetted the
RFA with many experts, crafted it accordingly, and believed it appropriately addressed
the Agency’s initiative. In addition, the RFA allowed the Agency to add, delete, or
modify proposals and/or projects across centers to meet RFA objectives. SSA also told
us that canceling the RFA could have been perceived by other applicants to mean that
SSA did not receive the application(s) it wanted to fund.

After the expert panel met in July 2009, an SSA Office of Acquisition and Grants official
determined that grant award policies do not preclude Agency representatives from
holding discussions with review panel members after they conclude their official review
and scoring. As such, SSA could have corresponded with the panel regarding its
concerns. However, at that time, SSA was not aware it could communicate with the
expert panelists. As a result, SSA did not specifically inform the expert panel how it
partially funded (rather than fully funded) the three FLRC research centers to address
several of the panel’s concerns. SSA officials did, however, send an email thanking the
panel members for their participation and informing them of the Agency’s intent to take
the panel’s concerns into consideration when making its funding decision. SSA also
sent another email forwarding the press release announcing SSA’s selection of the
three FLRC grantees. However, the Agency did not specifically communicate with the
panelists regarding how its final funding decision was influenced by their comments.




SSA’s Financial Literacy Research Consortium (A-08-10-20181)                             10
                                                                Conclusions
SSA interacts with millions of Americans each year—perhaps more than any other
Federal agency. Because of its ongoing relationship with the public and its unique
position to offer insights about financial literacy and retirement planning, SSA believed it
had a “special responsibility” to encourage saving among Americans. The FLRC is one
component of SSA’s initiative to accomplish this mission. Some of the expert panel
members who reviewed the FLRC grant proposals agreed with the Agency’s intentions
and acknowledged that SSA has an exceptional opportunity to provide financial literacy
education to the American public. In fact, two panel members stated that because they
understood the unusual opportunity the FLRC provided, their expectations for the grant
proposals were very high. As written, however, most panel members did not believe the
proposals submitted to SSA met their expectations.

According to SSA officials, they were unaware of any other grant review process that
resulted in a letter to the Agency recommending that no proposals be funded and a new
RFA be issued. As a result, SSA did not know if it could respond to the panel. The lack
of communication with expert panel members was disappointing to some. Some panel
members believed the Agency had not taken their concerns and recommendations
seriously. Additionally, panel members did not understand that the Agency only partially
funded some research centers and added another center specifically to address their
concerns.

We understand SSA was uncertain whether grant-making policies allowed it to discuss
the letter’s contents with the panel members. However, SSA specifically sought highly
respected members of the personal finance and financial literacy communities to
participate in this expert panel. With experts of this caliber—who clearly have strong
opinions about the issue—we believe SSA should have done more to clarify governing
policies after the conclusion of the panel’s technical review. If this occurs again, we
encourage SSA to improve its communication with panel members. Based on our
review results and additional concerns expressed by staff members of the House
Appropriations Committee and House Committee on Ways and Means, Subcommittee
on Social Security, we plan to review SSA’s overall grant award and management
process in Fiscal Year 2011.

Finally, while we have not audited the grantees’ performance, we determined SSA
coordinated with OMB and other Federal and private organizations on the FLRC
initiative—and continues to do so. While preventing duplicative research efforts may
not have been of primary concern during the initial coordination, SSA appears to be
monitoring other research efforts very closely to prevent overlap.




SSA’s Financial Literacy Research Consortium (A-08-10-20181)                             11
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology




SSA’s Financial Literacy Research Consortium (A-08-10-20181)
                                                                     Appendix A

Acronyms
    FLAG               Financial Literacy Advisory Group

    FLEC               Financial Literacy and Education Commission

    FLRC               Financial Literacy Research Consortium

    OIG                Office of the Inspector General

    OMB                Office of Management and Budget

    RFA                Request for Applications

    RRC                Retirement Research Consortium

    SSA                Social Security Administration




SSA’s Financial Literacy Research Consortium (A-08-10-20181)
                                                                        Appendix B

Scope and Methodology
To accomplish our objectives, we:

•     Reviewed the expert panel’s letter to Social Security Administration (SSA)
      contracting personnel regarding its concerns with the Financial Literacy Research
      Consortium (FLRC) process.

•     Reviewed the expert panel’s signed Representation of Absence of Conflict of
      Interest form.

•     Reviewed a copy of the expert panel’s scores and comments for the FLRC
      applications.

•     Reviewed SSA email correspondence to the expert panel.

•     Interviewed SSA officials from the Offices of Acquisition and Grants, and Retirement
      Policy responsible for developing and overseeing the grant and FLRC process.

•     Interviewed 11 1 of the 12 expert panelists who reviewed and scored FLRC
      applications to obtain their perspective of SSA’s application review process, Request
      for Applications, and the merits of applications submitted.

Our scope and review of internal controls was limited to gaining an understanding of
(1) why SSA considered its FLRC necessary, (2) whether SSA coordinated with other
agencies or the Office of Management and Budget to ensure research and development
efforts were not duplicative, and (3) what SSA’s expert panel found when reviewing the
FLRC grant proposals. The principal entity audited was the Office of Retirement Policy
under the Deputy Commissioner for Retirement and Disability Policy. We conducted
our review between May and August 2010 in Birmingham, Alabama;
Baltimore, Maryland; and Washington, D.C.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




1
    One panelist was unavailable for interview.


SSA’s Financial Literacy Research Consortium (A-08-10-20181)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
